           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
           STATE OF MAINE
        FOR THE FISCAL YEAR
         ENDED JUNE 30, 2007

     March 2009     A-77-09-00010




 MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      March 26, 2009                                                          Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Maine for the Fiscal Year
           Ended June 30, 2007 (A-77-09-00010)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Maine for the Fiscal Year ended June 30, 2007. Our objective was
           to report internal control weaknesses, noncompliance issues, and unallowable costs
           identified in the single audit to SSA for resolution action.

           The Maine Department of Audit performed the audit. We have not received the results
           of the desk review conducted by the Department of Health and Human Services (HHS).
           We will notify you when we receive the results if HHS determines the audit did not meet
           Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by the Maine Department of Audit
           and the reviews performed by HHS. We conducted our review in accordance with the
           Quality Standards for Inspections issued by the President’s Council on Integrity and
           Efficiency.

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
           Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
           identified by CFDA number 96. SSA is responsible for resolving single audit findings
           reported under this CFDA number.

           The Maine Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The Maine
           DDS is reimbursed for 100 percent of allowable costs. The Department of Human
           Services (DHS) is the Maine DDS’ parent agency.
Page 2 – Candace Skurnik


The single audit reported:

   1. Payroll certifications were not obtained for employees who worked solely on
      SSA’s DI and SSI programs (Attachment A, Page 1). The corrective action plan
      indicates that semiannual certifications will be completed and retained for all
      Maine DDS staff (Attachment A, Page 1).

   2. Suspension and debarment certification language was not included in all
      contracts with DDS medical and psychological consultants. In addition, the
      Excluded Parties List System (EPLS) website was not checked to determine
      whether the medical and psychological consultants were excluded from
      participation in Federal programs (Attachment A, Pages 2 and 3). The corrective
      action plan indicates the required disbarment form will be completed on future
      contracts, and consultants will be verified using the EPLS website to ensure they
      are not excluded or disqualified (Attachment A, Page 3).

   3. DHS had an insufficient accounting system to account for Federal program funds
      (Attachment A, Pages 4 and 5). The corrective action plan indicates DHS will
      maintain a chart of accounts, document all procedures and review and reconcile
      account activity (Attachment A, Page 5).

We recommend that SSA:

   1. Verify that payroll certifications have been completed and are being maintained
      for DDS employees who work solely on the DI and SSI programs.

   2. Ensure contracts related to the DDS include suspension and debarment
      certification language.

   3. Ensure the DDS reviews the EPLS as part of the consultant background check
      process.

   4. Ensure DHS is properly accounting for funds provided to the Maine DDS for
      disability determinations.

The single audit also disclosed the following findings that may impact the DDS’
operations although they are not specifically identified to SSA. I am bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency.

   •   The Department of Administrative and Financial Services (DAFS) failed to return
       excess reserves to the Federal funding sources (Attachment B, Page 1).

   •   DAFS did not have an acceptable plan to reduce excess working capital reserves
       with the Government (Attachment B, Pages 2 and 3).
Page 3 – Candace Skurnik


   •   DAFS had excess reserves reported in the cost allocation plan that was
       submitted to HHS (Attachment B, Pages 3 and 4).

Please send copies of the final Audit Clearance Document to Ken Bennett. If you have
questions contact Ken Bennett at (816) 221-0315 extension 1558.




                                              Patrick P. O’Carroll, Jr.

Attachment
Attachment A
  Page 1 of 5
Attachment A
  Page 2 of 5
Attachment A
  Page 3 of 5
Attachment A
  Page 4 of 5
Attachment A
  Page 5 of 5
Attachment B
  Page 1 of 4
Attachment B
  Page 2 of 4
Attachment B
  Page 3 of 4
Attachment B
  Page 4 of 4
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
